  CONTROLS FOR THE ELECTRONIC DATA INTERCHANGE AT
    THE DEFENSE FINANCE AND ACCOUNTING SERVICE
                     COLUMBUS

Report No. D-2001-095                          April 6, 2001




             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD, Home
 Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports Distribution
 Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937 (DSN
 664-8937) or fax (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request audits, contact the Audit Followup and Technical
 Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas
 and requests can also be mailed to:

                     OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
 by sending an electronic message to Hotline@dodig.osd.mil; or by writing to the
 Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each
 writer and caller is fully protected.




Acronyms
ASD (C3I)            Assistant Secretary of Defense for Command, Control, Communications
                        and Intelligence
CCR                  Central Contractor Registry
DEBX                 Defense Electronic Business Exchange
DFAS                 Defense Finance and Accounting Service
DISA                 Defense Information Systems Agency
DITSCAP              DoD Information Technology Security Certification and Accreditation
                        Process
EDI                  Electronic Data Interchange
JECPO                Joint Electronic Commerce Program Office
MOCAS                Mechanization of Contract Administration Services
SAMMS                Standard Automated Materiel Management System
                      Office of the Inspector General, DoD

Report No. D-2001-095                                                 April 6, 2001
 (Project No. D2000FG-0057.01)

            Controls for the Electronic Data Interchange at the
            Defense Finance and Accounting Service Columbus

                                 Executive Summary

Introduction. On May 21, 1997, the Under Secretary of Defense (Comptroller)
directed the move to a paper-free contracting process which would modernize the
acquisition processes of contract writing, administration, finance, and auditing. In
1998, the Joint Electronic Commerce Program Office assumed a lead role in the
Electronic Data Interchange as part of the DoD Paper-Free Contracting Initiative. The
Electronic Data Interchange sends and receives contract payment information from
computer to computer in a standard format, thus allowing documents to be received,
validated, accepted, and immediately processed. Electronic Data Interchange was
designed to reduce the amount of paper used and stored by DoD contracting personnel,
reduce the contract payment cycle time, and facilitate the sharing of information among
Government and commercial communities. In essence, Electronic Data Interchange
should eliminate the need to use paper documentation to enter contract data in contract
pay systems and financial data in accounting systems. Defense Finance and Accounting
Service Columbus personnel rely on the information accessed from the Electronic Data
Interchange to make an average of 1.2 million payments (344,000 for Mechanization of
Contract Administration Services System and 922,000 for Standard Automated Materiel
Management System) yearly totaling approximately $40 billion.

The Director, Defense Finance and Accounting Service Columbus, requested that we
review the Electronic Document Access System and the Electronic Data Interchange to
determine whether sufficient safeguards were in place to verify the accuracy of
electronically transmitted contractual data. We issued a report on the Electronic
Document Access System that recommended that the security responsibilities and
Defense Finance and Accounting Service security and training requirements for the
Electronic Document Access System be defined, and that an end-to-end assessment of
system security be completed.

Objectives. The audit objective was to determine whether the security of the
Electronic Data Interchange was adequate. The audit included reviews of selected
security controls, compliance with the Chief Financial Officers Act requirements, and
the management control program as it related to the overall objective. The report
discusses the Defense Finance and Accounting Service implementation of the Electronic
Data Interchange as it applies to the Defense Finance and Accounting Service
Columbus general controls.

Results. The Joint Electronic Commerce Program Office security controls over
Electronic Data Interchange were not sufficient to provide reasonable assurance that the
Defense Finance and Accounting Service Columbus contract payments were accurate.
Specifically, the Defense Information Systems Agency performed security test and
evaluations on the Electronic Data Interchange in 1999 and 2000 that resulted in
31 findings, which remain open. Further, the security test and evaluations were based
on security agreements that did not include input from the Defense Finance and
Accounting Service. Unless corrective actions are taken, data transmitted through the
Electronic Data Interchange could be subject to undetected alteration and misuse. The
lack of a complete security agreement and a security test and evaluation based on that
agreement increased the risk of data inaccuracy because security controls were not
sufficient. See the Finding section of the report for details on the audit and Appendix A
for details of the review on the management control program.

Summary of Recommendations. We recommend that the Director, Joint Electronic
Commerce Program Office, coordinate with the Defense Finance and Accounting
Service and the Defense Information Systems Agency to update the security agreement
for Electronic Data Interchange to incorporate security requirements and the assessment
of the risks associated with using Electronic Data Interchange. We also recommend
that the Director, Joint Electronic Commerce Program Office, perform an independent
Electronic Data Interchange security test and evaluation, based on an updated security
agreement, incorporate the security requirements outlined in the security agreement in
the Defense Finance and Accounting Service trading partner agreements for the data
originating sites, and initiate corrective action to close the 31 open security test and
evaluation findings.

Management Comments. The Joint Electronic Commerce Program Office concurred
with coordinating with the Defense Finance and Accounting Service and the Defense
Information Systems Agency to update the security agreement for the Electronic Data
Interchange, performing an independent Electronic Data Interchange security test and
evaluation based on the updated security agreement, and incorporating the security
requirements outlined in the security agreement in the Defense Finance and Accounting
Service trading partner agreement. However, the Joint Electronic Commerce Program
Office partially concurred with closing 31 open security test and evaluation findings,
stating that the 31 findings are outdated because they are the result of a security test and
evaluation done in 1999. A new security test and evaluation was conducted
October 2 through 6, 2000. See the Finding section of the report for details on the
management comments and the management comments section for the complete text of
management comments.

Audit Response. Comments from the Joint Electronic Commerce Program Office
were responsive. However, comments regarding the 31 open security findings stated
that another security test and evaluation was conducted in October 2000 which resulted
in 21 security findings. Of the 21 security findings, 5 are expected to remain open.
We request that the Joint Electronic Commerce Program Office explain the impact that
the remaining five security findings will have on the security of the Electronic Data
Interchange as well as provide an anticipated closing date for the remaining five
security findings. We also request that the Joint Electronic Commerce Program Office
provide written comments that address the verbal agreement made by the Defense
Finance and Accounting Office and the Joint Electronic Commerce Program Office
regarding the Defense Finance and Accounting Service trading partner agreements.
Therefore, we request additional comments to the final report by June 6, 2001.




                                             ii
Table of Contents

Executive Summary                                                                 i

Introduction
     Background                                                                  1
     Objective                                                                   4

Finding
     Adequacy of Security Controls Over the Use of Electronic Data Interchange   5

Appendixes
     A. Audit Process                                                            12
          Scope                                                                  12
          Methodology                                                            13
          Management Control Program Review                                      13
     B. Prior Coverage                                                           15
     C. Report Distribution                                                      16


Management Comments
     Defense Information Systems Agency                                          19
Background
    The Director, Defense Finance and Accounting Service (DFAS) Columbus,
    requested that we review the use of Electronic Document Access and Electronic
    Data Interchange (EDI) to determine whether sufficient safeguards are in place
    to verify the accuracy of electronically transmitted contractual data. We issued
    the draft report, “General Controls Over the Electronic Document Access
    System” on August 25, 2000. The report stated that the security responsibilities
    and DFAS security and training requirements for the Electronic Document
    Access System have not been defined, and an end-to-end assessment of system
    security has not been completed.

    Paper-Free Contracting Initiative. On May 21, 1997, the Under Secretary of
    Defense (Comptroller) directed the move to a paper-free contracting process to
    simplify and modernize the acquisition process in contract writing,
    administration, finance, and auditing.

    Joint Electronic Commerce Program Office. To support the paper-free
    contracting initiative, the Deputy Secretary of Defense, under Defense Reform
    Initiative Directive 43, “Defense-Wide Electronic Commerce,” May 20, 1998,
    directed the establishment of the Joint Electronic Commerce Program Office
    (JECPO). JECPO acts as a primary entity under the policy direction of the
    Assistant Secretary of Defense for Command, Control, Communications, and
    Intelligence (ASD [C3I]) to integrate electronic commerce in DoD.

    Electronic Data Interchange Responsibility. From 1993 to 1998, the Defense
    Information Systems Agency (DISA) managed EDI and made it available for use
    at DFAS Columbus. On November 24, 1998, ASD (C3I) selected JECPO to
    implement DoD electronic commerce. Also in 1998, EDI management was
    passed to JECPO as part of the paper-free contracting initiative. As managers
    of electronic commerce, JECPO is responsible for developing security standards
    for the certification and accreditation of EDI.

    DoD System Certification and Accreditation Process. DoD Manual 5200.40,
    “DoD Information Technology Security Certification and Accreditation Process
    (DITSCAP) Application Manual,” December 1999, (the accreditation process),
    establishes standards for certifying and accrediting the security of DoD systems
    throughout their life cycle. The certification supports the accreditation process
    that determines whether a system is designed and implemented to meet a set of
    specified security requirements. The accreditation is a formal declaration by a
    designated approving authority that an information technology system is
    approved to operate in a particular security mode using a prescribed set of
    safeguards. Before a system can be certified and accredited, the accreditation
    process requires the completion of a system security authorization agreement
    (security agreement) and a security test and evaluation.

            System Security Authorization Agreement. The security agreement is
    a formal binding agreement among the designated approving authority, the
    certification authority, information technology system representatives, and the
    program manager. For EDI, the Program Manager, Information Assurance
    Program Management Office, DISA is the designated approving authority. The
    DISA Deputy Director for ASD (C3I) Program Integration is the certification
                                        1
          authority; DFAS is the user representative; and JECPO is the program manager.
          The security agreement specifies the level of security required when the system
          development begins or when changes to a system are made. The security
          agreement is designed to fulfill the requirements for a security plan and to meet
          all the needs for certification and accreditation support documentation.

          The security agreement consists of the system mission, threats to the system,
          target environment, target architecture, security requirements, and applicable
          data access policies and resources. Using the security agreement, the decision
          approving authority determines the accreditation based on the security
          safeguards, risk, corrective actions, and compliance with the security
          agreement.

                   Security Test and Evaluation. The DITSCAP requires a security test
          and evaluation to be performed in order to evaluate implementation of system
          security. This security test and evaluation will verify that automated security
          features affecting confidentiality, integrity, and availability have been
          implemented according to the security agreement, are performing properly, and
          provide the required security features. The performance of a security test and
          evaluation may be a joint effort among the users, systems administrator, and
          program management. In the case of EDI, the security test and evaluation
          should consist of DFAS, DISA, JECPO, and data originating sites. The results
          of the initial security test and evaluation are included in the security agreement
          that is provided to the designated approving authority for certification and
          accreditation.

          Benefits of Electronic Data Interchange. EDI is the electronic exchange of
          information between two business concerns (trading partners), in a specific
          predetermined format. Traditionally, the focus of EDI activity has been on the
          replacement of paper business forms, such as purchase orders and invoices, with
          electronic forms. EDI was designed to reduce the amount of paper used and
          stored by DoD contracting personnel, reduce the contract payment cycle time,
          and facilitate the sharing of information among Government and commercial
          communities. In essence, EDI should eliminate the need to use paper
          documents to enter contract data in contract pay systems and financial data in
          accounting systems.

          DFAS Use of Electronic Data Interchange. DFAS uses EDI to submit
          information to its contract payment systems.1 DFAS Columbus personnel rely
          on the information accessed from EDI to make an average of 1.2 million
          payments (344,000 for Mechanization of Contract Administration Services
          [MOCAS] and 922,000 for Standard Automated Materiel Management System
          [SAMMS]) yearly totaling approximately $40 billion. Based on the analysis
          performed on information provided by DFAS, 48 percent of the contract
          invoices received by MOCAS and SAMMS were paid using EDI.




1
    MOCAS and SAMMS are DFAS payment processing systems.

                                               2
            Electronic Data Interchange Flow. The following figure describes the EDI
            process and the flow of data through EDI.




            In order to make a contract payment from MOCAS or SAMMS, DFAS receives
            images of contracts and receiving reports2 from DoD sites, as well as images of
            invoices from contractors through EDI. EDI translates the data into the
            American National Standards Institute Accredited Standard Committee X12
            format (the X12 format).3 Once the data have been translated into the X12
            format, they are forwarded through the Non-secure Internet Protocol Routing
            Network to the DoD unclassified data communication network into the Defense
            Business Exchange (DEBX) located in Columbus, Ohio. The DEBX then
            forwards the data into the DFAS Columbus Gateway, which translates the data
            from the standard X12 format into files for use by MOCAS and SAMMS
            payment processing systems.




2
    The receiving reports confirm to DFAS that the item or service on a contractor’s invoice has been
    received or rendered satisfactorily.
3
    DoD accepts X12 as the standard format for electronic business transactions.
                                                      3
Objective
    The audit objective was to determine whether security for EDI was adequate.
    The audit included reviews of selected security controls, compliance with the
    Chief Financial Officers’ Act requirements, and the management control
    program as it related to the overall objective. This report discusses JECPO and
    DFAS Columbus implementation of controls over EDI. Refer to Appendix A
    for a discussion of the management control program and Appendix B for prior
    audit coverage.




                                       4
           Adequacy of Security Controls Over the
           Use of Electronic Data Interchange
           Security controls over the use of Electronic Data Interchange at the
           Defense Finance and Accounting Service Columbus were not sufficient
           to provide reasonable assurance that contract payments were accurate.
           The Defense Information Systems Agency performed security test and
           evaluations on the Electronic Data Interchange in 1999 and 2000 that
           resulted in 31 findings, which remain open. Further, the security test
           and evaluations were based on security agreements that did not include
           input from the Defense Finance and Accounting Service. The lack of
           security controls occurred because the Joint Electronic Commerce
           Program Office and the Defense Finance and Accounting Service have
           not addressed security over the Electronic Data Interchange to include
           performing an assessment to identify the risks associated with the use of
           the Electronic Data Interchange or effectively testing controls over the
           Electronic Data Interchange process. As a result, data obtained through
           Electronic Data Interchange may be subject to undetected alteration and
           misuse. Additionally, the lack of a security agreement and a valid
           security test and evaluation increased the risk of data inaccuracy and that
           implemented security may not have operated as intended.

Guidance and Responsibility for Information Systems
    Electronic Commerce Responsibilities. In Defense Reform Initiative Directive
    No. 43, the ASD (C3I) designated JECPO as the DoD-wide organization to
    oversee implementation of electronic commerce initiatives. DFAS and DISA
    also play a prominent role in EDI use. DFAS uses EDI to provide data for
    contract payment processing. DISA provides the infrastructure upon which EDI
    operates.

    DoD System Security Requirement. DoD Directive 5200.28, “Security
    Requirements for Automated Information Systems (AIS),” March 21, 1988,
    provides guidance on mandatory minimum automated information system
    security requirements. The Directive requires the heads of DoD Components to
    verify that periodic independent reviews of the security and protection of their
    automated information system are accomplished to ensure compliance with
    stated security goals.

    EDI Guide. DFAS Columbus issued the Electronic Data Interchange Guide on
    November 4, 1999. The guide contains information pertaining to all current
    DFAS Columbus EDI transactions. It explains the EDI registration process,
    format used, and participation requirements (including the trading partner
    agreements that explain the responsibility of each participant). However, the
    trading partner agreements do not discuss security.




                                        5
Establishing EDI Security Controls
     Security controls over the use of EDI at DFAS Columbus were not sufficient to
     provide reasonable assurance that contract payments were accurate.
     Documentation needed to support the completion of a risk assessment is
     inadequate. The DITSCAP provides the guidance to assess the risks of
     operating a system and to determine whether a system can be accredited and
     certified for use. Specifically, the DITSCAP mandates that information systems
     managers prepare a system security authorization agreement to document how
     the system will operate and the risks of operating the system. The risks
     documented in the security agreement are validated through a security test and
     evaluation. As a result of a successful security test and evaluation, the system
     can be certified and accredited for use. If the system does not pass the security
     test and evaluation the designated approving authority can require that changes
     be made to the system or grant a 1-year interim authority to operate. The
     DISA-designated approving authority can issue the interim authority to operate
     when the benefits of using the system are greater than the security risks
     discovered in the security test and evaluation. JECPO did not follow this
     process.

     1998 EDI Security Agreement. In 1998, DISA began preparing an EDI
     security agreement. Also, in 1998, JECPO assumed management of EDI.
     JECPO, however, did not complete the EDI security agreement because
     according to the JECPO Deputy Director, controls over paperless transactions
     should be no greater than the controls over paper transactions. Therefore,
     JECPO personnel assumed that a completed security agreement was not
     necessary. Because the security agreement establishes and documents the
     operating risks of a system, without a complete security agreement, the EDI
     operating risks were unknown.

     In September 1999, DISA performed a security test and evaluation on EDI
     based on an incomplete security agreement. The DITSCAP requires that the
     DISA-designated approving authority review the security agreement which
     includes the results from the assessments and evaluations performed on the
     system, prior to granting authority to operate or an interim authority to operate.
     However, the DISA-designated approving authority issued an interim authority
     to operate in September 1999 although the security test and evaluation was
     based on an incomplete security agreement. The DISA-designated approving
     authority later extended the interim authority to operate through October 31,
     2000. The DISA-designated approving authority did not follow the certification
     and accreditation process outlined in the DITSCAP. Although the security test
     and evaluation was based on an incomplete security agreement, the security test




                                          6
            and evaluation disclosed 21 security findings, which concentrated on important
            parts of the EDI flow, the DEBX, and the Central Contractor Registry (CCR).4

             For example;

                     •   the DEBX and the CCR security policy have been in draft since
                         1996;

                     •   the DEBX and the CCR are operating without full implementation of
                         security safeguards necessary to protect against sabotage, tampering,
                         fraud, misappropriation, misuse, or release to unauthorized persons;
                         and

                     •   several files with superuser and group privileges5 on the DEBX and
                         the CCR are listed.

            The security agreement for EDI is still in draft and the expected completion date
            was early January 2001. Additionally, a security test and evaluation based on
            the new security agreement was completed on October 4, 2000. The security
            test and evaluation disclosed 10 additional security findings. JECPO personnel
            stated that they will attempt to correct 8 of the 10 additional findings identified
            in the security test and evaluation results. Two of the findings disclosed in the
            security test and evaluation that JECPO personnel expect to correct specifically
            relate to issues discussed in this report. For example:

                     •   although a System Security Authorization Agreement is in draft, it
                         requires final coordination and signatures of agreement; and

                     •   Memorandums of Agreement, Memorandums of Understanding, and
                         Levels of Agreement have not been established with any of the
                         interfaces to include DFAS and DISA.

            As a result of this information, the DISA-designated approving authority granted
            another extension on the EDI interim authority to operate which now expires on
            April 30, 2001.

Assessing EDI Security Controls
            Security controls at DFAS Columbus were not reliable because JECPO and
            DFAS have not addressed security over EDI to include performing an
            assessment to identify the risks associated with the use of EDI or effectively
            testing EDI controls. JECPO and DFAS had not coordinated an effort to



4
    In order to conduct business with the Federal Government at DFAS Columbus, all contractors must be
     registered with the DISA Central Contractor Registry, regardless of whether the business is conducted
     through EDI or on paper.
5
    Superusers have all privileges at all times. Group privilege is a set of users in a system that are given
    the same access rights to the system.

                                                         7
complete security agreements and assess risks, validate risk assessment through
test and evaluation, and account for security requirements in trading partner
agreements.

Establishing a Security Agreement and Assessing Risk. The DITSCAP
requires that the parties involved in a system’s operation work together to
establish a security agreement that assesses the risk of using the system.
However, JECPO, DFAS, and DISA personnel did not work together to verify
that the use of electronic commerce initiatives in DoD was secure.

In August 1998, DISA prepared a draft security agreement for EDI. Further,
JECPO began updating the security agreement which had an expected
completion date of September 2000. However, JECPO personnel stated that the
security agreement did not contain DFAS input. This is a significant oversight
because DFAS relies upon correct EDI information to make contract payments.
DFAS personnel need to know whether controls to validate that accurate
contract payments have been assessed by DoD. To mitigate this risk, JECPO,
DFAS, and DISA should develop a working group or team to oversee the
preparation of an EDI security agreement.

Validating the Security Agreement through Test and Evaluation. The
DITSCAP mandates that the security agreement and any subsequent certification
and accreditation be validated through security test and evaluation. In
September 1999, DISA performed a security test and evaluation as a result of
the draft security agreement developed in August 1998. However, because the
security test and evaluation was not based upon a completed security agreement
that included DFAS input it is unlikely that the security test and evaluation
sufficiently validated the risks of operating EDI at DFAS Columbus.

Further, according to JECPO officials, the 21 findings identified in the
September 1999 security test and evaluation will remain open because JECPO
officials believed that EDI only automated a paper intensive process and,
therefore, needed no additional security. As a result, JECPO has not taken
action to correct deficiencies identified through the security test and evaluation
and may not have tested for other weaknesses because the security agreement
was incomplete.

JECPO conducted an EDI security test and evaluation as a result of the new
security agreement. However, JECPO did not address the 21 open findings and
did not include DFAS Columbus in the preparation of the new security
agreement and the security test and evaluation. Thus, the new security test and
evaluation will likely not validate EDI security at DFAS Columbus. JECPO
needs to update the security agreement to include DFAS Columbus concerns.
JECPO should require DFAS to participate in the EDI security test and
evaluation to determine whether the risks are acceptable.

Accounting for DFAS Trading Partner Agreements. The DITSCAP states
that the security agreement will be the single document to address the security of
a system. However, in order to make contract payments using EDI, DFAS
enters into trading partner agreements with contractors and other DoD personnel
(data originating sites). Using EDI, contractors send invoices and the DoD sites
send receiving reports or other contract payment documentation. DFAS
establishes trading partner agreements with each site that submits data through

                                     8
     EDI to DFAS Columbus. Trading partner agreements state that the data
     originating sites will maintain a certain level of security, but the trading partner
     agreements are silent on the definition of “certain level of security,” and what
     security requirements should be maintained. However, once an agreement is
     signed, no testing is performed by JECPO, DFAS, or the trading partner to
     verify compliance with the agreement to provide security. Further, the DFAS
     trading partner agreements need only be established and completed once, and
     then are valid for all current and future EDI transactions.

     JECPO and DFAS have no assurance that security measures have been taken by
     the originating sites or that data provided to DFAS by those locations are
     accurate and unaltered. JECPO should require that the trading partner
     agreements include the security requirements contained in the EDI security
     agreement and are validated through the EDI security test and evaluation
     process. This will verify that EDI data are protected in accordance with the
     DITSCAP requirements.


Status of EDI Security Controls
     The controls over EDI use at DFAS Columbus did not provide reasonable
     assurance that the system was adequately protected. As such, the EDI security
     weaknesses increased the risk for undetected alteration or misuse. The lack of a
     complete security agreement and a valid security test and evaluation increased
     the risk of data inaccuracy. There is also a risk that implemented security
     procedures may not have operated as intended as evidenced by the 31 open
     security test and evaluation findings. Therefore, JECPO should correct all the
     open security test and evaluation findings.


Management Actions
     During the audit, we informed JECPO, DFAS, and DISA personnel that the
     DITSCAP process should be followed for EDI. Subsequently, JECPO started to
     prepare another draft EDI security agreement, which was completed on
     January 1, 2001. The DISA designated approving authority granted an
     extension on EDI interim authority to operate which now expires on April 30,
     2001, as a result of a security test and evaluation that was completed on
     October 4, 2000. The decision to follow the DITSCAP process is acceptable;
     however, DFAS, which uses EDI to make payments again was not part of the
     process. Therefore, the input of all affected stakeholders required by the
     DITSCAP has not been met. DFAS input is necessary to validate that the risks
     of making $40 billion in contract payments are tolerable.


Summary
     Managers can not attest to the reliability of EDI data until a security agreement
     has been accomplished with all the necessary participants, the security test and
     evaluation findings have been assessed, and security policies are contained in
     trading partner agreements. JECPO should establish an electronic commerce
     workgroup or team to verify that necessary security requirements are obtained
                                          9
     from DFAS, DISA, and data origination sites. The EDI security agreements
     and trading partner agreements should be validated through the security test and
     evaluation and the trading partner agreements should reflect the security
     requirements outlined in the security agreement.


Recommendations, Management Comments, and Audit
  Response
  We recommend that the Director, Joint Electronic Commerce Program Office:

            1. Update the security agreement for Electronic Data Interchange to
               incorporate security requirements and the assessment of the risks
               associated with using the Electronic Data Interchange to include
               input and participation from the Defense Finance and Accounting
               Service and the Defense Information Systems Agency.

            JECPO Comments. JECPO concurred and stated that a security
            agreement for the Defense Electronic Business Exchange, in accordance
            with the Defense Information Technology Security Certification and
            Accreditation Process, has been finalized and agreement was obtained
            from all principals involved.

            2. Perform an independent Electronic Data Interchange security test
               and evaluation, based on an updated security agreement to
               include Electronic Data Interchange users, the Defense Finance
               and Accounting Service, and the Defense Information Systems
               Agency.

            JECPO Comments. JECPO concurred and stated that on
            October 2 through 6, 2000, an independent security test and evaluation
            was performed to validate all security requirements as documented in the
            security agreement. The findings resulting from the security test and
            evaluation are being addressed and appropriate corrective actions are
            being implemented.

            3. Incorporate the security requirements outlined in the security
               agreement in the Defense Finance and Accounting Service trading
               partner agreements for the data originating sites.

            JECPO Comments. JECPO concurred and stated that as part of the
            Electronic Commerce Interoperability Process, Value Added Networks,
            and direct connect vendors, to include DFAS trading partners, must
            agree to abide by the terms and conditions when they submit their Client
            Application Questionnaire.

            Audit Response. The formal comments from JECPO were partially
            responsive because the Electronic Commerce Interoperability Process
            was not a sufficient means to provide trading partners with the
            appropriate security requirements. Subsequent to the JECPO written
            comments, DFAS and JECPO personnel agreed that DFAS would
            incorporate the security agreement requirements in the trading partner
            agreements. Therefore, we request that the Joint Electronic Commerce
                                        10
Program Office provide written comments that address the verbal
agreement made by the Defense Finance and Accounting Office and the
Joint Electronic Commerce Program Office regarding the Defense
Finance and Accounting Service trading partner agreements.

4. Initiate corrective action to close the 31 open security test and
   evaluation findings.

JECPO Comments. JECPO partially concurred and stated that the
31 findings referenced in the report are outdated because they are the
result of a security test and evaluation conducted in 1999. Since the test
in 1999, a new security test and evaluation was conducted
October 2 through 6, 2000. The security test and evaluation in 2000
resulted in 21 security findings. As of February 2001, 12 findings are
closed, 9 findings are open, and 5 of the 9 findings will remain open.

Audit Response. Comments from JECPO are responsive. However,
we request that JECPO explain the impact that the remaining five
security findings will have on the security of EDI. Additionally, we
request that JECPO provide an anticipated closing date for the remaining
five security findings.




                            11
Appendix A. Audit Process
Scope
    Work Performed. We performed the audit at DFAS Arlington, DFAS
    Columbus, and the Joint Electronic Commerce Program Office. We reviewed
    how DFAS implemented controls for an entity-wide security program and access
    controls for EDI. We interviewed the DFAS Columbus Information Security
    Manager, the DFAS Columbus Terminal Area Security Officers, and the DISA
    security representatives at the Columbus and Ogden centers to determine how
    they implemented security over EDA and EDI. We also performed a walk-
    through of the EDA and EDI process as it relates to MOCAS and SAMMS.

    We reviewed how DFAS Columbus implemented the entity-wide security plan
    and general security controls (access controls). We obtained and reviewed the
    security readiness reviews performed by DISA Field Security Operations. The
    reviews identified weaknesses and planned corrective actions for operating
    software that supports EDI.

    Limitations of Audit Scope. The audit was limited to the review of the general
    controls. As a result of our assessment of the general controls, we determined
    that a review of the application controls should not be conducted at this time.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. As of
    December 2000, the Act does not provide a corporate level goal for information
    assurance, although the General Accounting Office lists it as a high-risk area.
    This report pertains to achievement of the following goal and subordinate
    performance goal:

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-02)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals:

           •   Financial Management Area. Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers
               Financial Integrity Act. (FM-5.3)

                                        12
           •   Information Management Technology Area. Objective: Ensure
               that DoD vital information resources are secure and protected. Goal:
               Assess information assurance posture of DoD operational systems.
               (IMT-4.4)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Information Management and Technology and the
    Defense Financial Management high-risk areas.


Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not use technical assistance to perform
    this audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from August 2000 through January 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We used the General Accounting Office Federal
    Information Systems Control Manual and the DoD Information Technology
    Security Certification and Accreditation Process as guides for conducting this
    general control review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls in place for EDI. Specifically, we reviewed
    the implementation of DoD policies and procedures governing EDI. We
    reviewed management’s self-evaluation applicable to those management
    controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DoD Instruction 5010.40. Management
    controls could not ensure that the security for EDA and EDI is adequate. All
    recommendations in this report, if implemented, will provide adequate controls
    for ensuring that the security for EDI is adequate.
                                         13
A copy of this report will be provided to the senior official responsible for
management controls in ASD(C3I), DFAS Arlington, and DFAS Columbus.

Adequacy of Management’s Self-Evaluation. DFAS Columbus officials did
not identify EDI as an assessable unit and, therefore, did not identify or report
the material management control weaknesses identified by the audit.




                                    14
Appendix B. Prior Coverage

General Accounting Office
    GAO Report No. GAO/AIMD 99-107 (OSD Case No. 1835), “DoD
    Information Security: Serious Weaknesses Continue to Place Defense
    Operations at Risk,” August 26, 1999

    GAO Report No. GAO/AIMD 98-92 (no OSD case number was issued),
    “Information Security – Serious Weaknesses Place Critical Federal Operations
    and Assets at Risk,” September 23, 1998

Inspector General
    Inspector General, DoD, Report No. D-2001-029, “General Controls Over the
    Electronic Document Access System,” December 27, 2000

    Inspector General, DoD, Report No. 99-103, “DoD Efforts to Implement
    Year 2000 Compliance for Electronic Data Interchange,” March 5, 1999

    Inspector General, DoD, Report No. 96-214, “Computer Security for the
    Federal Acquisition Computer Network,” August 22, 1996



Air Force
    Air Force Audit Agency, Project No. DW000005, “Accounting for Selected
    Assets and Liabilities (Fund Balance with Treasury), Fiscal Year 1998 Air
    Force Consolidated Financial Statements, Defense Finance and Accounting
    Service, Columbus, Columbus, OH,” December 8, 1999

    Air Force Audit Agency, Project No. DW000003, “Accounting for Revenues
    and Other Financing Sources (Disbursements), Fiscal Year 1998 Air Force
    Consolidated Financial Statements, Defense Finance and Accounting Service -
    Columbus, Columbus, OH,” November 22, 1999

    Air Force Audit Agency, Project No. 97064011, “Electronic Data Interchange
    Procurement Transactions,” December 24, 1998




                                      15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Joint Electronic Commerce Program Office

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Columbus
Director, Defense Information Systems Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         17
Defense Information Systems Agency Comments




                     19
20
21
22
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD prepared this report. Personnel of Office of the Inspector General,
DoD, who contributed to the report, are listed below.

F. Jay Lane
Salvatore D. Guli
Kimberley A. Caprio
Eric L. Lewis
Jacqueline J. Vos
Yolanda C. Watts
Troy R. Zigler
Lisa C. Rose-Pressley
Stephen G. Wynne
